quinn emanuel

trial lawyers | washington, dc

1300 I Street NW, Suite 900, Washington, District of Columbia 20005-3314 | TEL (202) 538-8000 FAX (202) 538-8100

WRITER'S DIRECT DIAL NO.
(202) 538-8123
WRITER'S EMAIL ADDRESS
derekshaffer@quinnemanuel.com

February 5, 2021
VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Americans for Prosperity Foundation v. Becerra, Case No. 19-251

Dear Mr. Harris,
I represent Petitioner Americans for Prosperity Foundation as counsel of record in the
above-captioned case.
In accordance with Rule 37.3(a) of the Rules of the Supreme Court of the United States,
the Petitioner grants blanket consent to the filing of amicus curiae briefs in this case, whether in
support of either party or neither party, at the merits stage.

Respectfully submitted,

Derek L. Shaffer
cc:

Aimee Athena Feinberg, counsel of record for Respondent (via e-mail)
John J. Bursch, counsel of record for Petitioner in Case No. 19-255 (via e-mail)

quinn emanuel urquhart & sullivan, llp
LOS ANGELES | NEW YORK | SAN FRANCISCO | SILICON VALLEY | CHICAGO | WASHINGTON, DC | HOUSTON | SEATTLE | BOSTON | SALT LAKE CITY
LONDON | TOKYO | MANNHEIM | HAMBURG | PARIS | MUNICH | SYDNEY | HONG KONG | BRUSSELS | ZURICH | SHANGHAI | PERTH | STUTTGART

